DATE :                       November 3, 2004

MEMORANDUM FOR:              EMILY STOVER DeROCCO
                             Assistant Secretary for
                              Employment and Training



FROM:                        ELLIOT P. LEWIS
                             Assistant Inspector General
                              for Audit

SUBJECT:                     Audit of North Carolina Employment Security Commission’s
                             ADP/IT Central Services Costs Charges to U.S. DOL Grants
                             During the Period July 1, 1996 through June 30, 2000
                             Audit Report 03-05-003-03-315

The Office of Inspector General (OIG) has completed an audit of the automatic data processing
and information technology (ADP/IT) central services costs charged to U.S. Department of
Labor (USDOL) grants awarded to the North Carolina Employment Security Commission (ESC)
for the period July 1, 1998, through June 30, 1999 (SFY 1999).

Based on the audit results, we found the State of North Carolina did not adjust estimated costs
charged to USDOL programs to actual costs incurred for SFYs 1997 through 1999. Therefore,
we recommend that USDOL, Employment and Training Administration (ETA) ensure the State
provide actual cost information for those years and refund any amounts that were overcharged.

Background

North Carolina’s ESC procures its computer mainframe ADP/IT central services from the North
Carolina Office of Information Technology Services (OITS). OITS is a service bureau providing
ADP/IT central services to all agencies and departments of the executive and legislative
branches of the North Carolina State government. OITS uses a chargeback system to recover its
operating costs. OITS prepares reconciliations between its budgeted and actual costs and
refunds any over-billings to user agencies. During SFYs 1997 through 2000, OITS charged a
total of $16,543,864 for ADP/IT central services costs of which $12,792,842 was charged to
USDOL grants.

Objective, Scope, and Methodology

The audit objective was to determine whether such costs were reasonable, allowable, and
properly allocable under the Federal cost principles set forth in OMB Circular A-87 for State
Fiscal Years (SFYs) 1997 through 2000. Since the auditors found the State did not make the
required adjustments for variances between billed and actual costs for SFY 1999, they expanded
the audit scope to include ADP/IT central services costs charged to all USDOL grant awards
administered by ESC for SFYs 1997 through 2000.

The auditors interviewed officials from the North Carolina State Controller’s Office, OITS, and
ESC to determine the methodology used for allocating and charging OITS monthly billings to
various benefiting cost objectives as required by OMB Circular A-87. They did not test the
process OITS uses to accumulate the cost, allocate indirect cost, and bill programs. They
interviewed OITS officials to determine how expenditures charged to the USDOL grant
programs were recorded in the accounting system. The audit work included determining
whether the State made the required adjustments to the USDOL grants for variances between
billed costs and the actual allowable costs of providing ADP/IT services.

The audit was performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards issued by the Comptroller
General of the United States. The audit fieldwork for this engagement was conducted at ESC,
OITS, and the Office of the State Controller in Raleigh, North Carolina.

Results

The State of North Carolina did not adjust costs charged to USDOL grant programs for
SFYs 1997 through 1999 for differences between estimated costs and actual costs as required by
OMB Circular A-87. Therefore, the State could not show how the total claimed costs charged to
USDOL grant programs for SFYs 1997 through 1999 are reasonable, allowable, or properly
allocable.

The review of the OITS Federal Financial Participation Refund and ESC’s Financial Accounting
and Reporting System transaction register found that DOL grants were properly credited for SFY
2000. However, no adjustments were made for SFYs 1997 through 1999. OITS officials said
that the State passed legislation requiring OITS to maintain its billing rates in order to provide
funding for Y2K contingencies. As a result, OITS officials interpreted the legislation as not
allowing the issuance of any refunds to the user agencies for SFYs 1997 through 1999.

Recommendation

We recommend the USDOL Assistant Secretary for Employment and Training ensure the
cognizant USDOL Grant Officer(s) adjust the ADP/IT central service costs charged to USDOL
based on actual costs, and refund any overcharges to DOL for SFYs 1997 through 1999.

Auditee’s Response

In the response to the draft report, ESC agreed OITS did not provide a refund as an adjustment
between estimated and actual costs for SFYs 1997 through SFY 1999. After the draft report was
issued, OITS provided documentation of its OMB Circular A-87 reconciliations. The
reconciliations showed an excess of revenue over expenses for SFY 1998 (surplus), and an
excess of expenses over revenue (loss) in SFYs 1997 and 1999. Overall there was a surplus of
$137,159 for costs charged to USDOL grants in SFY 1998. OITS proposed refunding this
amount to ESC, or the USDOL, as a settlement of this issue.


                                                                                                  2
See Attachment for the complete ESC response to the draft report.

OIG Conclusion

The recommendation will be resolved in USDOL’s formal resolution process.

This subject final report is submitted for your resolution action. We request a response to this
report within 60 days. It is your office’s responsibility to transmit the attached report promptly
to the program officials for resolution.

If you have any questions about this report, please contact Michael T. Hill, Regional Inspector
General for Audit, in Philadelphia at (215) 446-3710.


Attachment


cc: Laura Patton Watson, Grant/Contracting Officer
      Division of Resolution and Appeals Closeout Unit
    Victor M. Lopez, Chief, Division of Cost Determination
    Cheryl Atkinson, Administrator, Office of Workforce Security




                                                                                                     3
  ATTACHMENT


AUDITEE’S RESPONSE




                     4
